U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 22, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Park Properties Associates, L.P. et al. v. United States, No. 19-268
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 28,
2019. The government's response is now due, after one extension, on October 30, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 13, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0268
PARK PROPERTIES ASSOCIATES, L.P., ET AL.
USA

JENNIFER ARONOFF
MCDERMOTT WILL & EMERY LLP
444 WEST LAKE STREET
CHICAGO, IL 60606
312-984-7747
THOMAS A. GENTILE
WILSON ELSER MOSKOWITZ EDELMAN &
DICKER LLP
FLORHAM PARK, NJ 07932
973-624-0800
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
MATTHEW L. KNOWLES
MCDERMOTT WILL & EMERY LLP
28 STATE STREET
BOSTON, MA 02109
617-535-3885
MKNOWLES @MWE .COM

